VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                       Inspection of 

                                                                     VA Regional Office 

                                                                    Muskogee, Oklahoma 





                                                                                September 3, 2013
                                                                                 12-04326-275
             ACRONYMS AND ABBREVIATIONS 



DRO          Decision Review Officer
OIG          Office of Inspector General
QRT          Quality Review Team
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Inspection of VA
                  Regional Office Muskogee, OK

Why We Did This Review                            the effectiveness of VBA’s outreach
                                                  activities because VBA needs performance
The Veterans Benefits Administration              measures for its homeless veterans outreach
(VBA) has 56 VA Regional Offices                  program.
(VAROs) and 1 Veterans Service Center in
Cheyenne, Wyoming, that process disability        What We Recommend
claims and provide a range of services to
veterans.  We evaluated the Muskogee              The VARO Director should:
VARO to see how well it accomplishes this
mission.                                          	 Develop a plan to review the
                                                     304 temporary 100 percent disability
What We Found                                        evaluations    remaining from   our
                                                     inspection universe.
Overall, VARO staff did not accurately            	 Provide and monitor the effectiveness of
process 25 (42 percent) of 60 disability             training on processing traumatic brain
claims we reviewed. We sampled claims we             injury claims.
consider to be at higher risk of processing
errors, thus these results do not represent the   	 Implement a plan to ensure accurate
overall accuracy of disability claims                second-signature reviews of traumatic
processing at this VARO.                Claims       brain injury claims.
processing lacked consistent compliance           	 Ensure staff address Gulf War veterans’
with VBA procedures and resulted in paying           entitlement to mental health treatment.
inaccurate and unnecessary financial
benefits.                                         Agency Comments
Specifically, 12 of 30 temporary 100 percent      The     Director    concurred      with   our
disability evaluations we reviewed were           recommendations, although VARO staff did
inaccurate; however, we identified no             not agree with 6 of 13 traumatic brain injury
systemic trend associated with these              claims processing errors we identified.
processing errors.       Additionally, staff      Management’s planned actions are responsive
misinterpreted VBA policy and inaccurately        and we will follow up as required.
processed 13 of 30 traumatic brain injury
claims.

VARO management ensured Systematic
Analyses of Operations were complete and
timely, but did not ensure staff properly
addressed Gulf War veterans’ entitlement to                 LINDA A. HALLIDAY
mental health treatment.     VARO staff                  Assistant Inspector General
provided adequate outreach to homeless                   for Audits and Evaluations
veterans; however, we could not fully assess

                                                                                            i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    I. 	 Disability Claims Processing ...............................................................................................2
 

           Finding 1              Muskogee VARO Could Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 

                                  Recommendations........................................................................................8
 

    II. 	Management Controls ..........................................................................................................9 


    III. Eligibility Determinations..................................................................................................10 


           Finding 2              Gulf War Veterans Did Not Always Receive Accurate Entitlement 

                                  Decisions for Mental Health Treatment .....................................................10 


                                  Recommendation .......................................................................................11
 

    IV. Public Contact ....................................................................................................................12 


Appendix A                        VARO Profile and Scope of Inspection .....................................................13
 

Appendix B                        Inspection Summary ..................................................................................15 


Appendix C                        VARO Director’s Comments.....................................................................16 


Appendix D                        Office of Inspector General Contact and Staff Acknowledgments ...........19 


Appendix E                        Report Distribution ....................................................................................20 





                                                                                                                                                 ii
                                                    Inspection of VA Regional Office Muskogee, OK



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In April 2013, we inspected the Muskogee VARO. The inspection focused
Inspection          on the following four protocol areas—disability claims processing,
                    management controls, eligibility determinations, and public contact. Within
                    these areas, we examined two high-risk claims processing areas of temporary
                    100 percent disability evaluations and traumatic brain injury (TBI) claims.
                    We also examined three operational activities—Systematic Analyses of
                    Operations (SAOs), Gulf War veterans’ entitlement to mental health
                    treatment, and the homeless veterans outreach program.

                    We reviewed 30 (9 percent) of 334 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We also examined 30 (73 percent) of
                    41 disability claims related to TBI that VARO staff completed during the
                    period October through December 2012.
Other               	 Appendix A provides details on the VARO and the scope of our
Information            inspection.
                    	 Appendix B provides criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the VARO Director’s comments on a draft of this
                       report.


VA Office of Inspector General                                                                 1
                                                          Inspection of VA Regional Office Muskogee, OK



                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing

Claims	             The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy            these claims processing issues and their impact on veterans’ benefits.

Finding 1 	         Muskogee VARO Could Improve Disability Claims Processing
                    Accuracy

                    The Muskogee VARO did not consistently process temporary 100 percent
                    disability evaluations and TBI cases accurately. Overall, VARO staff
                    incorrectly processed 25 of the total 60 disability claims we sampled,
                    resulting in 95 improper monthly payments to 5 veterans totaling
                    $150,129 from April 2010 until March 2013.

                    We sampled claims related to specific conditions that we considered at
                    higher risk of processing errors. As a result, the errors we identified do not
                    represent the universe of disability claims or the overall claims processing
                    accuracy rate at this VARO. As reported by VBA’s Systematic Technical
                    Accuracy Review (STAR) program as of February 2013, the overall
                    accuracy of the VARO’s compensation rating-related decisions was
                    89.9 percent—0.1 percentage points below VBA’s target of 90 percent. We
                    did not review this program information during the scope of this inspection.

                    The following table reflects the errors affecting, and those with the potential
                    to affect, veterans’ benefits processed at the Muskogee VARO.

Table 1                       Muskogee VARO Disability Claims Processing Accuracy
                                                                       Claims Inaccurately Processed

                           Type of Claim         Reviewed      Affecting       Potential To
                                                               Veterans’      Affect Veterans’       Total
                                                                Benefits          Benefits
                      Temporary 100 Percent
                      Disability Evaluations
                                                   30              4                08                 12
                      Traumatic Brain Injury
                      Claims
                                                   30              1                12                 13
                      Total                        60              5                20                 25
                      Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid
                      at least 18 months or longer and TBI disability claims completed in the first quarter
                      FY 2013




VA Office of Inspector General                                                                                2
                                                     Inspection of VA Regional Office Muskogee, OK


Temporary           VARO staff incorrectly processed 12 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a service-connected disability following a veteran’s
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, including confirmed and
                    continued evaluations where rating decisions do not change veterans’
                    payment amounts, VSC staff must input suspense diaries in VBA’s
                    electronic system. A suspense diary is a processing command that
                    establishes a date when VSC staff must schedule a medical reexamination.
                    As a suspense diary matures, the electronic system generates a reminder
                    notification to alert VSC staff to schedule the medical reexamination.

                    VBA policy requires a 65-day due process period after a veteran is notified
                    of a proposed adverse action, such as a reduction in a temporary 100 percent
                    evaluation. At the end of the due process period, immediate action should be
                    taken as appropriate to reduce the evaluation and thereby minimize
                    overpayments.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at increased risk of paying inaccurate financial benefits.
                    Available medical evidence showed that 4 of the 12 processing errors we
                    identified affected veterans’ monthly benefits and resulted in 75 improper
                    monthly payments totaling $139,657 from April 2010 until March 2013.
                    Three errors involved overpayments totaling $137,140 and one error
                    involved an underpayment totaling $2,517. The remaining 8 of the total
                    12 errors had the potential to affect veterans’ benefits. Details on the most
                    significant overpayment and the underpayment follow.

                    	 A Rating Veterans Service Representative (RVSR) incorrectly continued
                       a temporary 100 percent disability evaluation of a veteran’s prostate
                       cancer. Medical evidence showed the veteran had completed treatment
                       warranting a reduction in benefits as of April 2010. However, VA
                       continued processing monthly benefits and overpaid the veteran
                       $86,499 over a period of 2 years and 11 months.
                    	 An RVSR did not grant a veteran entitlement to an additional special
                       monthly benefit based on multiple 100 percent disability evaluations as
                       required. As a result, the veteran was underpaid $2,517 over a period of
                       7 months.

                    VARO staff did not schedule medical reexaminations as required for some of
                    the errors identified. In six cases, we found scheduling delays ranging from
                    approximately 1 year to 7 years and 3 months.


VA Office of Inspector General                                                                  3
                                                     Inspection of VA Regional Office Muskogee, OK


                    Summaries of the total 12 errors we identified follow.

                    	 Three errors occurred when staff did not schedule routine medical
                       reexaminations after receiving system-generated reminder notifications
                       to do so.
                    	 Two errors occurred when RVSRs incorrectly reduced veterans’ benefits.
                    	 Two errors occurred when RVSRs incorrectly continued the veterans’
                       100 percent disability evaluations for prostate cancer although medical
                       evidence warranted reductions in the disability benefits.
                    	 One error occurred when an RVSR continued a veteran’s temporary
                       100 percent evaluation; however, the rating decision did not indicate
                       whether a future examination was required. The rating decision also did
                       not state whether the veteran’s temporary 100 percent disability
                       evaluation would be considered a permanent condition that did not
                       require medical re-examination.
                    	 One error occurred when staff did not establish a suspense diary in the
                       electronic record, thereby removing the possibility that staff would
                       receive a reminder notification to schedule a medical reexamination as
                       required.
                    	 One error occurred when an RVSR did not provide a veteran due process
                       as required before reducing benefits.
                    	 One error occurred when an RVSR did not consider entitlement to
                       Dependents’ Educational Assistance. Evidence in the claims folder
                       showed the veteran’s disabilities were permanently and totally disabling,
                       warranting receipt of the additional benefit.
                    	 One error occurred when an RVSR did not grant a veteran entitlement to
                       an additional special monthly benefit based on multiple 100 percent
                       disability evaluations.

                    In response to a recommendation in our national report, Audit of 100 Percent
                    Disability Evaluations (Report No. 09-03359-71, January 24, 2011), VBA
                    updated the electronic system to automatically establish diaries for confirmed
                    and continued rating decisions when a future medical reexamination is
                    required. VBA confirmed the update was successful in June 2011. One of
                    the 12 errors we found occurred prior to this update. After the update, we
                    did not identify any errors involving establishment of diaries for confirmed
                    and continued rating decisions.

                    In November 2011, Muskogee VSC management implemented a local
                    checklist to assist staff in processing routine medical reexaminations after
                    receiving system-generated reminder notifications. The checklist referenced
                    VBA policy and provided specific step-by-step requirements. Three of the
                    12 errors we found occurred prior to implementation of this checklist. We

VA Office of Inspector General                                                                  4
                                                     Inspection of VA Regional Office Muskogee, OK


                    did not identify any errors involving staff not scheduling routine medical
                    reexaminations when the system alerted them to do so following
                    implementation of the checklist.

                    Our review showed the reasons for the remaining eight errors varied. VSC
                    management and staff interviewed could not explain why RVSRs made these
                    errors and attributed them to human error. Because we did not identify a
                    systemic trend associated with processing these evaluations, we made no
                    recommendation for improvement in this area.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Muskogee, OK
Prior VA OIG        (Report No. 10-00936-158, dated May 21, 2010), we reported that
Inspection          inaccuracies in processing 16 of 30 temporary 100 percent disability
                    evaluation errors occurred because VARO staff did not have an
                    understanding of the computer system’s capabilities. Specifically, VARO
                    managers stated they assumed VBA’s electronic system eliminated the need
                    for staff to input future exam diaries and therefore they did not provide
                    oversight of this process.

                    As corrective action, the Director of the Muskogee VARO implemented a
                    plan requiring that VSC staff print and sign documents to confirm that dates
                    in the electronic system were correct. After plan implementation, we did not
                    identify any error involving confirmed and continued rating decisions.
                    Additionally, the Director concurred with our recommendation to review the
                    temporary 100 percent disability evaluations remaining from our sample
                    universe to determine if reevaluations were required and to take appropriate
                    action. The OIG closed this recommendation in September 2010, based on
                    the VARO Director’s report that VSC staff took corrective action on all
                    cases identified during our inspection.

Actions Taken       In response to a recommendation in our national report, Audit of 100 Percent
in Response to      Disability Evaluations (Report No. 09-03359-71, dated January 24, 2011),
Prior Audit         the then-Acting Under Secretary for Benefits agreed to review all temporary
Report
                    100 percent disability evaluations and ensure each had a future examination
                    date entered in the electronic record. Our report stated, “If VBA does not
                    take timely corrective action, they will overpay veterans a projected
                    $1.1 billion over the next 5 years.” The then-Acting Under Secretary for
                    Benefits stated in response to our audit report that the target completion date
                    for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011;
                    then to June 30, 2012; and then again to December 31, 2012. Based on the
                    numerous delays and our continued findings, we are concerned about the
                    lack of urgency in completing this review, which is critical to minimize the
                    financial risk of making inaccurate benefits payments. To date, our national

VA Office of Inspector General                                                                   5
                                                     Inspection of VA Regional Office Muskogee, OK


                    audit recommendation for VBA to review all temporary 100 percent
                    disability evaluations remains open. We do not intend to close this
                    recommendation until our inspection results show a significant decrease in
                    the types of errors identified during our national audit.

                    During our 2013 inspection, we followed up on VBA’s national review of its
                    temporary 100 percent disability evaluation processing. We sampled
                    40 cases from the list of cases needing corrective actions that VBA provided
                    to the Muskogee VARO for review. We determined VARO staff accurately
                    reported taking actions in 39 of 40 cases we reviewed. In 1 of the 40 cases,
                    staff incorrectly reported the veteran was no longer evaluated at 100 percent
                    for prostate cancer. However, the electronic system showed the veteran
                    continued to receive a temporary 100 percent disability evaluation for the
                    condition. Further, in comparing VBA’s national review lists with our data
                    on temporary 100 percent disability evaluations, we found seven cases that
                    VBA had not identified. We will continue monitoring this situation as VBA
                    works to complete its national review.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report No.
                    11-00510-167, dated May 18, 2011), VBA agreed to develop and implement
                    a strategy for ensuring accurate TBI claims rating decisions. In May 2011,
                    VBA provided guidance to VARO Directors to implement a policy requiring
                    a second signature on each TBI case an RVSR evaluates until the RVSR
                    demonstrates 90 percent accuracy in TBI claims processing. The policy
                    indicates second-signature reviewers come from the same pool of staff as
                    those used to conduct local station quality reviews.

                    VARO staff incorrectly processed 13 of 30 TBI claims we reviewed. One of
                    the processing errors affected a veteran’s benefits and resulted in
                    20 improper monthly payments totaling $10,472. In this case, an RVSR
                    incorrectly established separate evaluations for a veteran’s TBI and
                    post-traumatic stress disorder although the examiner stated it was not
                    possible to differentiate which symptoms were attributable to each condition.
                    VBA policy requires staff to assign a single evaluation when medical
                    examiners state symptoms of TBI and a coexisting mental condition cannot
                    be clearly separated. As a result of the processing error, VA overpaid the
                    veteran over a period of 1 year and 8 months from July 2011 until
                    March 2013.



VA Office of Inspector General                                                                  6
                                                     Inspection of VA Regional Office Muskogee, OK


                    The remaining 12 processing errors had the potential to affect veterans’
                    benefits. Following are descriptions of these errors.

                    	 In 10 cases, RVSRs used insufficient VA medical examination reports to
                       evaluate the veterans’ disabilities. The RVSRs did not return these
                       insufficient examination reports for clarification to the issuing clinics or
                       health care facilities as required. Neither VARO staff nor we can
                       ascertain all of the residual disabilities of a TBI without an adequate or
                       complete medical examination.
                    	 In one case, an RVSR denied service connection for a combat veteran
                       even though the veteran had been diagnosed with a TBI associated with
                       combat service. According to VBA policy, when a veteran claims that a
                       condition occurred due to combat, and has a current disability associated
                       with such combat, service connection is warranted.
                    	 In another case, an RVSR incorrectly established separate evaluations for
                       a veteran’s TBI and coexisting mental conditions although the examiner
                       stated it was not possible to differentiate which symptoms were
                       attributable to which condition. This error did not affect the veteran’s
                       monthly benefits, but may affect future evaluations.

                    Generally, errors in TBI claims processing resulted from staff
                    misinterpreting VA policy. Interviews with VSC staff revealed that although
                    they were aware that a cognitive disorder is a mental disorder, the VARO’s
                    common practice was to evaluate this disorder using TBI evaluation criteria,
                    rather than using the specific criteria for mental disorders as required by
                    VBA training letter 09-01, dated January 21, 2009. For this reason, the
                    Muskogee VARO did not concur with 5 of the 13 TBI processing errors we
                    identified during our inspection.

                    The Muskogee VARO also did not concur with a TBI processing error we
                    identified in a sixth case, but for a slightly different reason. VSC staff
                    incorrectly assigned a 40 percent evaluation for TBI-related residuals based
                    on a symptom that the VA examiner had attributed to neither a TBI nor a
                    coexisting mental disorder. VSC staff believed that if a VA examiner
                    associates one or more symptoms to a mental disorder, then staff can assume
                    all remaining symptoms shown on that examination are related to TBI.
                    However, VBA policy requires the examiner to distinguish among symptoms
                    of a coexisting mental disorder and residuals of TBI, and to state if the
                    symptoms cannot be delineated. As a result of these misinterpretations of
                    VA policy, veterans may not have always received correct benefits.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Muskogee, OK
Prior VA OIG        (Report No. 10-00936-158, dated May 21, 2010), we stated 8 of 30 TBI
Inspection
                    processing errors generally occurred because VARO staff had not received
                    training following VBA’s issuance of new training materials and guidance
                    on TBI claims processing. The Director of the Muskogee VA Regional

VA Office of Inspector General                                                                   7
                                                    Inspection of VA Regional Office Muskogee, OK


                    Office concurred with our recommendation and agreed to provide refresher
                    training to ensure staff properly and accurately processed TBI claims. The
                    OIG closed this recommendation in September 2010 based on documentation
                    showing this TBI training was completed in March 2010. Although
                    additional training was provided in June 2012, we continued to identify TBI
                    processing errors during our current inspection due to VSC staff
                    misinterpreting VBA policy. As a result, we concluded the refresher training
                    has not effectively reduced processing errors.

                    Recommendations

                    1.	 We recommend the Muskogee VA Regional Office Director conduct a
                        review of the 304 temporary 100 percent disability evaluations remaining
                        from the data we used to perform the inspection and take appropriate
                        action.
                    2.	 We recommend the Muskogee VA Regional Office Director provide
                        refresher training on processing traumatic brain injury claims and
                        implement a plan to monitor the effectiveness of the training.
                    3.	 We recommend the Muskogee VA Regional Office Director develop and
                        implement a plan to ensure accurate second-signature reviews of
                        traumatic brain injury claims.

Management          The VARO Director concurred with our recommendations and indicated
Response            staff will complete a review of 304 temporary 100 percent disability
                    evaluations by September 9, 2013. The Quality Review Team will use data
                    from a locally created spreadsheet to identify common TBI claims
                    processing errors and provide training as appropriate. In addition, VBA
                    mandated that all RVSRs and Decision Review Officers complete 22 hours
                    of TBI claims processing training by November 2013.

                    The Director concurred with our recommendations, although VARO staff did
                    not agree with 6 of 13 traumatic brain injury claims processing errors we
                    identified. The Director indicated there are no regulations or guidance that
                    supports the requirement for medical examiners to explicitly attribute every
                    noted symptom on an examination report to a TBI. However, we note that
                    on VBA’s Disability Benefits Questionnaire, physicians are asked, “Does the
                    veteran have a TBI?” If the answer is yes, the physician is directed to
                    differentiate which symptoms are attributable to each diagnosis. We believe
                    this question clearly directs physicians to attribute symptoms to a TBI.

OIG Response        The Director’s actions       and   comments     are    responsive   to   the
                    recommendations.




VA Office of Inspector General                                                                 8
                                                       Inspection of VA Regional Office Muskogee, OK


                       II. Management Controls

Systematic             We assessed whether VARO management had adequate controls in place to
Analysis of            ensure complete and timely submission of Systematic Analyses of
Operations
                       Operations (SAOs). We also considered whether VSC staff used adequate
                       data to support the analyses and recommendations identified within each
                       SAO. An SAO is a formal analysis of an organizational element or
                       operational function. SAOs provide an organized means of reviewing VSC
                       operations to identify existing or potential problems and propose corrective
                       actions.    VARO management must publish annual SAO schedules
                       designating the staff required to complete the SAOs by specific dates. The
                       VSC Manager is responsible for ongoing analysis of VSC operations,
                       including completing 11 SAOs annually.

                       VARO staff completed all 11 mandated SAOs timely according to the SAO
                       schedule. All SAOs contained the required elements, included thorough
                       analyses using appropriate data, identified weaknesses or concerns, and
                       provided recommendations for improvement when needed. As such, we
                       made no recommendation for improvement in this area.

Follow-Up to Prior 
   In our previous report, Inspection of the VA Regional Office, Muskogee, OK
VA OIG Inspection
     (Report No. 10-00936-158, May 21, 2010), we reported VARO management
                       followed VBA policies by timely and accurately completing all required
                       SAOs. During our 2013 inspection, we found VSC management and staff
                       continued to complete SAOs timely using thorough analyses and appropriate
                       data. As such, we made no recommendation for improvement in this area.




VA Office of Inspector General                                                                    9
                                                     Inspection of VA Regional Office Muskogee, OK


                    III. Eligibility Determinations

Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for
Mental
                    According to prior VBA policy in effect for a portion of the claims we
Disorders           sampled, whenever an RVSR denied a Gulf War veteran service connection
                    for any mental disorder, the RVSR had to also consider whether the veteran
                    was entitled to receive mental health treatment. This policy required RVSRs
                    to deny entitlement when there was no medical evidence of a mental disorder
                    that developed within 2 years of separation from military service even when
                    the benefit had not been claimed by the veteran.

                    In December 2012, VBA modified its policy to state that RVSRs no longer
                    have to address Gulf War veterans’ entitlement to mental health care in all
                    cases. RVSRs must consider this entitlement when a veteran’s mental health
                    benefit can be granted based on diagnosis of a mental disorder within 2 years
                    of separation from military service.

                    In February 2011, VBA updated its Rating Board Automation 2000, a
                    computer application designed to assist RVSRs in preparing disability
                    ratings. The application provides a pop-up notification known as a tip master
                    to remind staff to consider Gulf War veterans’ entitlement to mental health
                    treatment when denying service connection for a mental disorder. This
                    pop-up notification does not generate if a previous decision did not address
                    entitlement to mental health services and a mental condition is not part of the
                    current claim.

Finding 2           Gulf War Veterans Did Not Always Receive Accurate Entitlement
                    Decisions for Mental Health Treatment

                    Based on the prior policy, VSC staff did not properly address whether
                    9 (39 percent) of 23 Gulf War veterans were entitled to receive treatment for
                    mental disorders. Generally, these inaccuracies occurred because staff
                    overlooked reminder notifications to consider entitlement to mental health
                    treatment. As a result, veterans may be unaware of the possible entitlement
                    and may not get the care they need.

                    Summaries of the nine errors we identified follow.

                       Four errors occurred when RVSRs overlooked the pop-up notification
                        reminder and subsequently did not consider entitlement to mental health
                        treatment. In three of these cases, entitlement was warranted.
                       Three errors occurred when RVSRs did not consider entitlement to
                        mental health treatment. In one of these cases, entitlement was
                        warranted.



VA Office of Inspector General                                                                  10
                                                    Inspection of VA Regional Office Muskogee, OK


                    	 Two errors occurred when RVSRs incorrectly denied the veterans
                       entitlement to mental health treatment.

                    Applying the new policy continued to show inaccuracies in addressing
                    entitlement to mental health treatment in 6 of 23 cases we reviewed.

                    Generally, these errors occurred because RVSRs overlooked the pop-up
                    notification reminding them to consider entitlement to mental health
                    treatment. Interviews with RVSRs revealed sufficient understanding of
                    VBA’s policy and receipt of recent training in this area. However, RVSRs
                    stated the pop-up notification was easy to ignore.

                    Recommendation

                    4.	 We recommend the Muskogee VA Regional Office Director develop and
                        implement a plan to ensure Rating Veterans Service Representatives
                        correctly address Gulf War veterans’ entitlement to mental health
                        treatment as required.

Management          The VARO Director concurred with our recommendation and indicated
Response            VARO staff use the Veterans Benefits Management System (Rating)
                    (VBMS-R). The Director indicated this system automatically requires
                    RVSRs to consider entitlement to mental health treatment for Gulf War
                    Veterans. The Director concluded that this enhancement should ensure this
                    issue is addressed appropriately.

OIG Response        The Director’s actions and comments are responsive to the recommendation.
                    However, we did not test this system during our inspection as it had not been
                    deployed to all staff. We will test VBMS during a future inspection to
                    determine if system enhancements improve the accuracy of considering
                    entitlement to mental health treatment for Gulf War Veterans.




VA Office of Inspector General                                                                11
                                                    Inspection of VA Regional Office Muskogee, OK


                    IV. Public Contact

Outreach to         In November 2009, VA developed a 5-year plan to end homelessness among
Homeless            veterans by assisting every eligible homeless veteran willing to accept
Veterans            services. VBA generally defines “homeless” as lacking a fixed, regular, and
                    adequate nighttime residence.

                    Congress mandated that at least one full-time employee oversee and
                    coordinate homeless veterans programs at each of 20 VAROs that VA
                    determined to serve the largest veteran populations. VBA guidance, last
                    updated in September 2002, directed that coordinators at the remaining
                    VAROs be familiar with requirements for improving the effectiveness of
                    VARO outreach to homeless veterans.           These requirements include
                    developing and updating a directory of local homeless shelters and service
                    providers. Additionally, the coordinators should attend regular meetings
                    with nearby homeless service providers, local government, and advocacy
                    groups to provide information on VA benefits and services.

                    The Muskogee VARO has a part-time Homeless Veterans Outreach
                    Coordinator. Our review confirmed that the coordinator was familiar with
                    requirements for improving the effectiveness of VARO outreach to homeless
                    veterans. The coordinator had established collaborative partnerships with
                    local homeless outreach facilities to provide information on VA benefits and
                    services. As such, we made no recommendation for improvement in this
                    area. However, without established performance measures, we could not
                    fully assess VBA’s outreach efforts. VBA needs a measurement to assess
                    the effectiveness of its homeless veterans outreach program.




VA Office of Inspector General                                                                12
                                                    Inspection of VA Regional Office Muskogee, OK


Appendix A          VARO Profile and Scope of Inspection

Organization        The Muskogee VARO administers a variety of services and benefits,
                    including compensation benefits; vocational rehabilitation and employment
                    assistance; specially adapted housing grants; benefits counseling; and
                    outreach to homeless, elderly, minority, and women veterans. The
                    Muskogee VARO also houses an Education Regional Processing Office and
                    the National Education Call Center.

Resources           As of January 2013, the Muskogee VARO reported a staffing level of
                    1,385 full-time employees. Of this total, the VSC had 206.6 employees
                    assigned.

Workload            As of February 2013, the Muskogee VARO reported 13,158 pending
                    compensation claims.     The average time to complete claims was
                    235.5 days—14.5 days better than the national target of 250.

Scope               VBA has 56 VAROs and 1 VSC that process disability claims and provide a
                    range of services to veterans. We evaluated the Muskogee VARO to see
                    how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders.

                    Our review included 30 (9 percent) of 334 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    January 16, 2013. We provided VARO management with 304 claims
                    remaining from our universe of 334 for its review. As follow-up to our
                    January 2011 audit, we sampled 40 temporary 100 percent disability
                    evaluations from the SharePoint list VBA provided to the VARO as part of
                    its national review. We also reviewed 30 (73 percent) of 41 TBI-related
                    disability claims that the VARO completed from October through
                    December 2012.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help VAROs understand the procedural improvements it can
                    make for enhanced stewardship of financial benefits. We do not provide this
                    information to require the VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments affecting entitlement to benefits per this review
                    is clearly a VBA management decision.



VA Office of Inspector General                                                                13
                                                     Inspection of VA Regional Office Muskogee, OK


                    We assessed the 11 mandatory SAOs the VARO completed in FY 2012 and
                    FY 2013. We examined 23 completed claims processed for Gulf War
                    veterans from October through December 2012 to determine whether VSC
                    staff had addressed entitlement to mental health treatment in the rating
                    decision documents as required. Further, we assessed the effectiveness of
                    the VARO’s homeless veterans outreach program.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We assessed
                    whether the data contained obvious duplication of records, alphabetic or
                    numeric characters in incorrect fields, or illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the 83 claims
                    folders we reviewed related to temporary 100 percent evaluations, TBI, and
                    Gulf War veterans’ entitlement to mental health treatment.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders at the Muskogee VARO did not
                    disclose any problems with data reliability.

                    While this report references VBA’s Systematic Technical Accuracy Review
                    data, the overall accuracy of the VARO’s compensation rating-related
                    decisions was 89.9 percent—0.1 percentage points below VBA’s
                    FY 2013 target of 90 percent. This data was not reviewed as part of this
                    inspection.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained and those instances where our review of claims found
                    no evidence provide a reasonable basis for our findings and conclusions
                    based on our inspection objectives.




VA Office of Inspector General                                                                 14
                                                             Inspection of VA Regional Office Muskogee, OK


Appendix B            Inspection Summary

                      Table 2 reflects the operational activities inspected, applicable criteria, and
                      whether or not we had reasonable assurance of VARO compliance.
                           Table 2. Muskogee VARO Inspection Summary
         Five                                                                                   Reasonable
      Operational                                                                               Assurance of
       Activities                                    Criteria                                   Compliance
       Inspected                                                                                Yes      No
                                          Disability Claims Processing
    1. Temporary       Determine whether VARO staff properly reviewed temporary
       100 Percent     100 percent disability evaluations. (38 CFR 3.103(b)) (38 CFR
       Disability                                                                                        X
                       3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart ii, Chapter 2,
       Evaluations     Section J) (M21-1MR Part III, Subpart iv, Chapter 3, Section C.17.e)

    2. Traumatic       Determine whether VARO staff properly processed claims for
       Brain Injury    service connection for all disabilities related to in-service TBI. (FL            X
       Claims          08-34 and 08-36) (Training Letter 09-01)
                                              Management Controls
    3. Systematic      Determine whether VARO staff properly performed formal
       Analysis of     analyses of their operations through completion of SAOs. (M21-4,          X
       Operations      Chapter 5)

                                            Eligibility Determinations
    4. Gulf War        Determine whether VARO staff properly processed Gulf War
       Veterans’       veterans’ claims, considering entitlement to medical treatment for
       Entitlement     mental illness. (38 United States Code 1702) ( M21-1MR Part IX,                   X
       to Mental       Subpart ii, Chapter 2) (M21-1MR Part III, Subpart v, Chapter 7) (FL
       Health          08-15) (38 CFR 3.384) (38 CFR 3.2)
                                                  Public Contact
    5. Homeless        Determine whether VARO staff provided effective outreach
       Veterans        services. (Public Law 107-05) (VBA Letter 20-02-34) (VBA Circular
                                                                                                 X
       Outreach        27-91-4) (FL10-11) (M21-1, Part VII, Chapter 6) (M27-1, Part II,
       Program         Chapter 2)
    Source: VA OIG
    Note: CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                               15
                                                           Inspection of VA Regional Office Muskogee, OK


Appendix C             VARO Director’s Comments


                  Department of
                  Veterans Affairs                               Memorandum
          Date:      August 12, 2013

          From:      C. Jason McClellan, Director, VA Regional Office Muskogee, Oklahoma

          Subj:      Inspection of the VA Regional Office, Muskogee, Oklahoma

            To:      Assistant Inspector General for Audits and Evaluations (52)



                  1. 	 The Muskogee VARO’s comments are attached on the OIG Draft 

                       Report: Inspection of the VA Regional Office, Muskogee, Oklahoma.


                  2. 	 Please refer questions to Linda LoPinto (918) 781-7500.


                     (original signed by:)
                     C. JASON McCLELLAN

                     Director


                     Attachment




VA Office of Inspector General                                                                       16
                                                    Inspection of VA Regional Office Muskogee, OK


IG Recommendations:
Recommendation 1: Develop a plan to review the 304 temporary 100 percent disability
evaluations remaining from our inspection universe.

RO Comments: Concur

The review of these cases began on August 9, 2013, with all review action to be completed by
September 9, 2013.

Recommendation 2: Provide and monitor the effectiveness of training on processing
traumatic brain injury claims.

RO Comments: Concur

The Muskogee RO utilizes a tracking spreadsheet to monitor the quality of completed TBI
claims. The Quality Review Team (QRT) Coach will review the tracking spreadsheet for
common errors made by Rating Veterans Service Representatives (RVSR) and Decision Review
Officers (DRO) and provide training in August 2013. The spreadsheet will continue to be
reviewed for monitoring purposes on a quarterly basis and training provided as appropriate.

On August 5, 2013, VBA Compensation Service mandated all RVSRs and DROs complete
VBA’s Training Performance and Support System (TPSS) module for rating traumatic brain
injury (TBI) by November 12, 2013. This module consists of 22 hours strictly devoted to rating
TBI. The training will be completed by the assigned date.

Recommendation 3: Implement a plan to ensure accurate second-signature reviews of
traumatic brain injury claims.

RO Comments: Concur in-part

VAOIG reviewed 30 claims involving TBI and cited 13 of the cases as containing errors, all of
which had a second signature review. The Muskogee RO did not concur with six of 13 errors
cited and the office provided its rationale for non-concurrence. The six cases in question were
sent for review by VBA Quality Assurance Staff for a second-level review given the difference
of opinion with the findings. Their response dated June 24, 2013, supported Muskogee’s non-
concurrence and stated the examinations were sufficient for rating purposes based on existing
policy and guidance. A copy of the VBA Quality Assurance Staff’s report was provided to
VAOIG on June 26, 2013. There are no regulations or guidance that supported the requirement
VAOIG was citing that examiners must explicitly attribute every noted symptom on examination
to TBI by excluding attribution to other conditions. The Muskogee RO concurs in-part based on
the fact there is a mix of cases we agree need to be corrected (seven cases), and some that have
been shown to be correct by VA Central Office (six cases). There are no regulations or guidance
to support the VAOIG’s interpretation with respect to the six errors in question.

QRT will review a sample of second signature cases each month to ensure we are consistently
interpreting TBI rating practices.


VA Office of Inspector General                                                                17
                                                  Inspection of VA Regional Office Muskogee, OK


The Muskogee RO utilizes a tracking spreadsheet to monitor the quality of completed TBI
claims. As stated above, the QRT Coach will review the tracking spreadsheet for common
errors made by RVSR/DRO’s and provide training in August 2013. The spreadsheet will
continue to be reviewed for monitoring purposes on a quarterly basis and training provided as
appropriate.

Recommendation 4: Ensure staff addresses Gulf War veterans’ entitlement to mental
health treatment.

RO Comments: Concur

The Muskogee RO has been using Veterans Benefits Management System (Rating) (VBMS-R)
since April 8, 2013. VBMS-R requires RVSRs to consider entitlement to mental health
treatment for Gulf War Veterans by automatically placing it as an issue. The RVSR must delete
the issue if entitlement is not warranted. We believe this enhancement will ensure RVSRs
address this issue appropriately.




VA Office of Inspector General                                                              18
                                            Inspection of VA Regional Office Muskogee, OK


Appendix D          Office of Inspector      General       Contact       and      Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Brent Arronte, Director
                                         Bridget Bertino
                                         Orlan Braman
                                         Vinay Chadha
                                         Michelle Elliott
                                         Scott Harris
                                         Lee Giesbrecht
                                         Rachel Stroup
                                         Dana Sullivan
                                         Nelvy Viguera Butler




VA Office of Inspector General                                                        19
                                                     Inspection of VA Regional Office Muskogee, OK


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Central Area Director
                    VA Regional Office Muskogee Director

                    Non-VA Distribution
                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Tom Coburn, James M. Inhofe
                    U.S. House of Representatives: Jim Bridenstine, Tom Cole, James Lankford,
                       Frank Lucas, Markwayne Mullin




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                 20
